No. 19In the

Supreme Court of the United States
GALE ZAMORE,
Petitioner,
v.
DEUTSCHE BANK NATIONAL TRUST CO.,
INDIVIDUALLY, AND AS TRUSTEE FOR
JP MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Bruce Jacobs
Counsel of Record
Jacobs Legal, PLLC
Alfred I. Dupont Building
169 East Flagler Street, Suite 1620
Miami, Florida 33131
(305) 358-7991
jacobs@jakelegal.com
Dated: July 24, 2019
289184

Counsel for Petitioner

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
QUESTION 1:
In Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280 (2005), this Court held that federal courts
have jurisdiction to consider claims even if the result
would be inconsistent with a state court’s prior decision.
Although Petitioner filed an independent claim based on
her statutory rights in 15 U.S.C. §1635, jurisdiction was
nevertheless declined. Can the Eleventh Circuit ignore
Exxon Mobil and apply its own now discarded standard
in Amos v. Glynn County Bd. of Tax Assessors, 347 F.3d
1249 (11th Cir. 2003).
QUESTION 2:
In Semtek Intern. Inc. v. Lockheed Martin Corp., 531
U.S. 497 (2001) this Court held that when determining
claim preclusion based on state claims, the federal courts
must apply state law. Here, the lower court applied federal
law, rather than state law, to find that the complaint was
barred under res judicata. Can the lower court disregard
the well-established rule and dismiss the complaint based
on federal res judicata principles?
QUESTION 3:
This Court held in Jesinoski v. Countrywide Home
Loans, Inc., 135 S. Ct. 790, 790 (2015) that a TILA
rescission is a completed event upon the sending of a timely
notice of rescission under 15 U.S.C. §1635. Thus, there is
no (and there can be no) statute of limitation applied to
this already completed event. Petitioner timely sent the

ii
notice of TILA rescission. Can the lower court disregard
Jesinoski and apply a doctrine which converts the event
of rescission into a claim of recession which can then be
denied?

iii
PARTIES TO THE PROCEEDINGS
Petitioner, Gail Zamore, is a homeowner who executed
a mortgage and note to a party claimed to be a predecessor
of Respondent. Zamore was the Plaintiff/Appellant before
the Eleventh Circuit Court of Appeal.
Respondent, Deutsche Bank National Trust Co.,
individually, and as Trustee for JP Morgan Mortgage
Acquisition Trust 2007-CH5 Asset Backed Pass-Through
Certificates Series 2007-CH5 (“the Bank”), claims to be
an assignee of Zamore’s home loan and was the Defendant/
Appellee before the Eleventh Circuit Court of Appeal.

iv
RELATED CASES
Eleventh Circuit Court of Appeals
Gale Zamore v. Deutsche Bank National Trust Co.,
individually, and as Trustee for JP Morgan Mortgage
Acquisition Trust 2007-CH5 Asset Backed Pass-Through
Certificates Series 2007-CH5, No. 18-13635, order
affirming lower court opinion dated March 25, 2019.
United States District Court for the Southern District
of Florida
Gale Zamore v. Deutsche Bank National Trust Co.,
individually, and as Trustee for JP Morgan Mortgage
Acquisition Trust 2007-CH5 Asset Backed Pass-Through
Certificates Series 2007-CH5 and Select Portfolio
Servicing, Inc., No. 17-80272-CIV, order dismissing the
action dated July 26, 2018 and Final Judgment dated July
26, 2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 8
I.

The Eleventh Circuit continues to deny
jurisdiction by applying an outdated
“inextricably intertwined” test without
applying the Exxon Mobil test . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
II. The lower court improperly applied federal
res judicata law to dismiss the action . . . . . . . . 12
III. State and Federal lower courts continue
to apply a statute of limitation to a TILA
rescission although no statute of limitations
can apply for the simple reason that
rescission is a completed event, not a
claim. Additionally, despite this Court’s
unanimous decision in Jesinoski, the lower
courts continue to require suit in order to
effect a recession even though the statute
calls for rescission by operation of law . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CIRCU I T, FI LED
MARCH 25, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
FILED JULY 26, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 7a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Amos v. Glynn County Bd. of Tax Assessors,
347 F.3d 1249 (11th Cir. 2003) . . . . . . . . . . . . . . .  10, 11
Bernstein v. Wells Fargo Bank, N.A.,
693 Fed. Appx. 848 (11th Cir. 2017)  . . . . . . . . . . . . . 15
Bolden v. City of Topeka, Kan.,
441 F.3d 1129 (10th Cir. 2006) . . . . . . . . . . . . . . . . . . 10
Cook v. Am. Home Mortgage Corp.,
16-CV-81733, 2017 WL 1386347
(S.D. Fla. Apr. 17, 2017)  . . . . . . . . . . . . . . . . . . . . . . . 15
Davani v. Virginia Dept. of Transp.,
434 F.3d 712 (4th Cir. 2006) . . . . . . . . . . . . . . . . . . . . 10
Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280 (2005) . . . . . . . . . . . . . . . . . . . . . . . passim
Gaytan v. Bank of New York Mellon,
CV1602421BROJEMX, 2017 WL 914707
(C.D. Cal. Mar. 6, 2017) . . . . . . . . . . . . . . . . . . . . . . . . 16
Great W. Mining & Mineral Co. v.
Fox Rothschild LLP,
615 F.3d 159 (3d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 10

ix
Cited Authorities
Page
Hennington v. JPMorgan Chase Bank, N.A.,
117CV03853MLBCMS, 2018 WL 4474642
(N.D. Ga. Apr. 10, 2018)  . . . . . . . . . . . . . . . . . . . . . . . 15
Hoang v. Bank of Am., N.A.,
910 F.3d 1096 (9th Cir. 2018)  . . . . . . . . . . . . . . . . . . . 16
Hoblock v. Albany County Bd. of Elections,
422 F.3d 77 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . .  10, 11
Houston v. Venneta Queen,
606 Fed. Appx. 725 (5th Cir. 2015)  . . . . . . . . . . . . . . 10
Iqbal v. Patel,
780 F.3d 728 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 9
Jacques v. Chase Bank USA, N.A.,
CV 15-548-RGA, 2016 WL 423770
(D. Del. Feb. 3, 2016), aff’d, 668 Fed. Appx. 437
(3d Cir. 2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Jesinoski v. Countrywide Home Loans, Inc.,
135 S. Ct. 790 (2015) . . . . . . . . . . . . . . . . . . 4, 13, 14, 15
Manufactured Home Communities Inc. v.
City of San Jose,
420 F.3d 1022 (9th Cir. 2005) . . . . . . . . . . . . . . . . . . . 10
Matsushita Elec. Indus. Co., Ltd. v. Epstein,
516 U.S. 367 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

x
Cited Authorities
Page
McCormick v. Braverman,
451 F.3d 382 (6th Cir. 2006) . . . . . . . . . . . . . . . . . . . . 10
Paatalo v. JPMorgan Chase Bank,
146 F. Supp. 3d 1239 (D. Or. 2015) . . . . . . . . . . . . . . . 16
Semtek Intern. Inc. v. Lockheed Martin Corp.,
531 U.S. 497 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13
Tyson v. Viacom, Inc.,
890 So. 2d 1205 (Fla. 4th DCA 2005) . . . . . . . . . . . . 13
U.S. Bank Nat’l Ass’n v. Gerber,
380 F. Supp. 3d 429 (M.D. Pa. 2018) . . . . . . . . . . . . . 16
Youakim v. Miller,
425 U.S. 231 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
STATUTES & OTHER AUTHORITIES:
15 U.S.C. § 1635  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1635(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 14
15 U.S.C. § 1635(b) . . . . . . . . . . . . . . . . . . . . . . . . . .  2, 7, 14
15 U.S.C. § 1635(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 14
15 U.S.C. § 1640  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 16

xi
Cited Authorities
Page
15 U.S.C. § 1640(e)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 8, 15
15 U.S.C. § 2101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1332(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4-5
28 U.S.C. § 1738  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
28 U.S.C. § 2201  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
OPINIONS BELOW
The Eleventh Circuit opinion, Apx. 1a, is reported at
762 Fed. Appx. 996 (11th Cir. 2019). The order of dismissal
and separate order of final judgment by the United States
Court for the Southern District of Florida, Apx. 7a, are
unreported.
STATEMENT OF JURISDICTION
On March 25, 2019, the Eleventh Circuit Court of
Appeals issued the Order that Petitioner requests this
Court to review. This Court has jurisdiction pursuant to
28 U.S.C. §1254. On June 18, 2019, this Court granted
Petitioner an extension to file the Petition for Writ of
Certiorari pursuant to 15 U.S.C §2101, on or before July
24, 2019.
STATUTORY PROVISIONS INVOLVED
15 U.S.C. § 1635
(a) Disclosure of obligor’s right to rescind
Exc ept a s ot her w i se pr ov ide d i n t h i s
section, in the case of any consumer credit
transaction (including opening or increasing
the credit limit for an open end credit plan) in
which a security interest, including any such
interest arising by operation of law, is or will
be retained or acquired in any property which
is used as the principal dwelling of the person
to whom credit is extended, the obligor shall
have the right to rescind the transaction until

2
midnight of the third business day following
the consummation of the transaction or the
delivery of the information and rescission forms
required under this section together with a
statement containing the material disclosures
required under this subchapter, whichever is
later, by notifying the creditor, in accordance
with regulations of the Bureau, of his intention
to do so….
(b) Return of money or property following
rescission
When an obligor exercises his right to rescind
under subsection (a), he is not liable for any
finance or other charge, and any security
interest given by the obligor, including any
such interest arising by operation of law,
becomes void upon such a rescission. Within
20 days after receipt of a notice of rescission,
the creditor shall return to the obligor any
money or property given as earnest money,
downpayment, or otherwise, and shall take
any action necessary or appropriate to reflect
the termination of any security interest
created under the transaction. If the creditor
has delivered any property to the obligor,
the obligor may retain possession of it. Upon
the performance of the creditor’s obligations
under this section, the obligor shall tender the
property to the creditor, except that if return
of the property in kind would be impracticable
or inequitable, the obligor shall tender its
reasonable value. Tender shall be made at the

3
location of the property or at the residence
of the obligor, at the option of the obligor. If
the creditor does not take possession of the
property within 20 days after tender by the
obligor, ownership of the property vests in the
obligor without obligation on his part to pay for
it. The procedures prescribed by this subsection
shall apply except when otherwise ordered by
a court.
…
(f) Time limit for exercise of right
An obligor’s right of rescission shall expire
three years after the date of consummation of
the transaction or upon the sale of the property,
whichever occurs first, notwithstanding the fact
that the information and forms required under
this section or any other disclosures required
under this part have not been delivered to the
obligor, except that if (1) any agency empowered
to enforce the provisions of this subchapter
institutes a proceeding to enforce the provisions
of this section within three years after the
date of consummation of the transaction, (2)
such agency finds a violation of this section,
and (3) the obligor’s right to rescind is based
in whole or in part on any matter involved in
such proceeding, then the obligor’s right of
rescission shall expire three years after the
date of consummation of the transaction or upon
the earlier sale of the property, or upon the
expiration of one year following the conclusion

4
of the proceeding, or any judicial review or
period for judicial review thereof, whichever
is later.
15 U.S.C. § 1640
(e) Jurisdiction of courts; limitations on
actions; State attorney general enforcement
Except as provided in the subsequent sentence,
any action under this section may be brought in
any United States district court, or in any other
court of competent jurisdiction, within one year
from the date of the occurrence of the violation
INTRODUCTION
Fundamentally this petition addresses the question
of this court’s authority and the effect of lower court
defiance with Supreme Court decisions with which a
lower court disagrees. In this case, the legal issues are:
(a) the application of Rooker Feldman, (b) claim preclusion
under the principle of res judicata, and (c) the effect of
TILA rescission under 15 U.S.C. §1635, all of which have
been conclusively decided by this Court in Exxon Mobil,
Semtek Intern. Inc., and Jesinoski. The issue of lower
court defiance on these issues is particularly manifest in
the Eleventh Circuit.
STATEMENT OF THE CASE
Jurisdiction of the lower courts
The District Court had subject matter jurisdiction
over this action pursuant to diversity jurisdiction, 28

5
U.S.C. § 1332(a), since Plaintiff/Petitioner resides in
Florida and Defendant/Respondent resides in California.
Additional jurisdiction exists pursuant to 15 U.S.C. §1635
for Truth in Lending Act (“TILA”) claims raised in the
Complaint and pursuant to 28 U.S.C. §2201 which allows
the District Court to determine declaratory actions, such
as the one brought in this case. Upon dismissal of this
action and the entry of a final judgment in the District
Court on June 26, 2018, the Eleventh Circuit Court of
Appeal obtained jurisdiction – pursuant to 28 U.S.C. §1291
– to review the final order disposing of all Plaintiff’s claims
upon the timely filed Notice of Appeal on August 27, 2018.
Proceedings leading to this appeal
The Complaint filed in the district court sought
declaratory judgment establishing that Plaintiff/
Petitioner’s rescission of her home loan was effected in
2009 upon the mailing of her timely letter of intent to
rescind. [L.C. Apx. 177-178].1
The loan at issue was refinanced by Chase Bank USA,
N.A. on January 20, 2007. [L.C. Apx. 153-176]. The closing
date of the transaction was January 30, 2007.
Thereafter, the loan was assigned to the Defendant/
Respondent, Deutsche Bank National Trust Co.,
individually, and as Trustee for JP Morgan Mortgage
Acquisition Trust 2007-CH5 Asset Backed Pass-Through
Certificates Series 2007-CH5 (“the Bank”), on August 4,
2009.
1. An Appendix containing all pertinent court documents was
filed in the lower court and is referred herein as L.C. Apx.

6
Foreclosure Action
On August 5, 2009, the Bank filed a foreclosure
action against Zamore in Palm Beach County Florida in
case number 50-2009-CA-027593. On October 22, 2009,
Zamore sent her rescission letter to the Bank, which was
filed in the foreclosure action on November 10, 2009. [L.C.
Apx.177-178]. Upon receipt of the rescission letter, the
Bank took no responsive action and continued with the
foreclosure case. Zamore did not raise rescission as an
affirmative defense in the foreclosure action. [L.C. Apx.
15-25]. On May 29, 2013, the state court entered a Final
Judgment of Foreclosure in the Bank’s favor. [L.C. Apx.
27-30].
On July 10, 2013, Zamore filed a Motion to Vacate
which raised rescission as its basis but did not provide any
procedural grounds for the motion. [L.C. Apx. 32-36]. A
hearing was held on May 23, 2014 and the transcript of
the hearing reveals that the reason the Motion to vacate
was denied was because rescission was not raised in the
answer and affirmative defenses. [L.C. Apx. 45-73]. The
Motion was ultimately denied without opinion. [L.C. Apx.
38 & 75-80]. Zamore appealed the final judgment – on
grounds other than rescission – but the final judgment
was per curium affirmed on April 12, 2016. [L.C. Apx. 90].
Quiet Title Action
Before the Motion to Vacate was denied in the
foreclosure action, Zamore brought a pro se quiet title
action against Defendant on July 7, 2014. [L.C. Apx. 97106]. The complaint asserted nine “counts” claiming the
Bank lacked an interest in the loan documents due to

7
securitization issues, fraud, and other claims. Only the last
count raised rescission. [L.C. Apx. 104-105]. The complaint
was later amended, pro se, to assert only facts. The issue
of rescission, while mentioned in two sentences, was not
a cause of action raised in the amended complaint. [L.C.
Apx. 108-118]. The Bank filed a Motion to Dismiss the
Second Amended Complaint on the asserted basis of res
judicata and a failure to state a cause of action. [L.C. Apx.
120-123]. The Bank’s motion did not address the merits
of any allegations. On October 13, 2015, the trial court
entered a Second Amended Order granting the Motion to
dismiss without stating a basis for the dismissal. [L.C.
Apx. 125-126]. Zamore appealed the dismissal, which
ultimately resulted in a per curium affirmance. [L.C.
Apx. 133].
Current Action
On March 3, 2017, Zamore filed this action against
the Respondent in the Southern District of Florida. [L.C.
Apx. 140-178]. The Complaint alleged two causes of action.
Count I was for a declaratory judgment pursuant to TILA,
on the basis that subject Mortgage and Note had already
been rescinded pursuant to 15 U.S.C. §1635(b). Count II
alleged that Respondent was liable for damages. Zamore
did not seeking review of the dismissal of Count II.
On June 9, 2017 the Bank filed its motion to dismiss
the complaint, attaching an uncertified copy of the Final
Judgment in the state foreclosure action and the lis
pendens filed in the state court action. On June 26, 2018,
the district court entered an Order of Dismissal and a
Final Judgment. [Apx. 7a]. The dismissal was premised
on the trial court’s erroneous finding that: 1) Rooker-

8
Feldman prevented the court from exercising jurisdiction,
2) res judicata barred the action, and 3) that the one-year
statute of limitations found in 15 U.S.C. 1640(e) barred
the TILA rescission. On August 27, 2018, Zamore filed
her notice of appeal seeking review only of the dismissal
of Count I.
On March 25, 2019, the Eleventh Circuit Court
of Appeal Affirmed the District Court’s dismissal of
the action based on lack of jurisdiction pursuant to the
Rooker-Feldman Doctrine. [Apx. 1a]. Petitioner now files
this Petition for Writ of Certiorari for the reasons stated
below.
REASONS FOR GRANTING THE PETITION
I.

The Eleventh Circuit continues to deny jurisdiction
by applying an outdated “inextricably intertwined”
test without applying the Exxon Mobil test.

Over 14 years ago, this Court issued Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280 (2005) to
clear up and narrow the application of the Rooker-Feldman
doctrine. The Court acknowledged that the doctrine has
been “[v]ariously interpreted in the lower courts, the
doctrine has sometimes been construed to extend far
beyond the contours of the Rooker and Feldman cases,
overriding Congress’ conferral of federal-court
jurisdiction concurrent with jurisdiction exercised by
state courts, and superseding the ordinary application
of preclusion law pursuant to 28 U.S.C. § 1738.” Id. at
283 (2005).

9
In Exxon Mobil, this court reversed a lower federal
court’s order dismissing an action for lack of subject-matter
jurisdiction because it was “inextricably intertwined”
with a state court judgment. Exxon Mobil, 544 U.S.
280. In reversing, this Court held that Rooker-Feldman
only applies to “cases brought by state-court losers
complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced
and inviting district court review and rejection of those
judgments.” Id. at 284. To be even more clear, this Court
further held that a district court is not barred “from
exercising subject-matter jurisdiction simply because
a party attempts to litigate in federal court a matter
previously litigated in state court.” Id. at 293 (emphasis
added). Instead, the test is: “[i]f a federal plaintiff
“present[s] some independent claim, albeit one that
denies a legal conclusion that a state court has reached in
a case to which he was a party ..., then there is jurisdiction
and state law determines whether the defendant prevails
under principles of preclusion.” Id. (emphasis added). In
other words, if a federal action passes this test, then it is
not inextricably intertwined with a state action.
The majority of the Circuit Courts have correctly
followed Exxon Mobil. For example, the Seventh Circuit
correctly held that “Exxon Mobil shows that the Rooker–
Feldman doctrine asks what injury the plaintiff asks
the federal court to redress, not whether the injury is
‘intertwined’ with something else.” Iqbal v. Patel, 780
F.3d 728, 730 (7th Cir. 2015).
The Second, Third, and Fifth Circuits have adopted
a four-part test based on Exxon Mobil which states
that a case is “inextricably intertwined” only if [1] the

10
federal plaintiff lost in state court, [2] the federal plaintiff
complains of injuries caused by a state court judgment [3]
federal plaintiff invited a federal district court to review
and reject the state court judgment and [4] the state court
judgment was rendered before the federal action was filed.
Hoblock v. Albany County Bd. of Elections, 422 F.3d 77,
85 (2d Cir. 2005); Great W. Mining & Mineral Co. v. Fox
Rothschild LLP, 615 F.3d 159, 167 (3d Cir. 2010); Houston
v. Venneta Queen, 606 Fed. Appx. 725, 730 (5th Cir. 2015).
Likewise, the Fourth, Sixth, Tenth, and Ninth
Circuits have also held that a federal claim is “inextricably
intertwined” with a state judgment only if the requirements
of Exxon Mobil are satisfied. Davani v. Virginia Dept.
of Transp., 434 F.3d 712 (4th Cir. 2006); McCormick v.
Braverman, 451 F.3d 382 (6th Cir. 2006); Bolden v. City
of Topeka, Kan., 441 F.3d 1129, 1145 (10th Cir. 2006);
Manufactured Home Communities Inc. v. City of San
Jose, 420 F.3d 1022, 1030 (9th Cir. 2005).
But the Eleventh Circuit continues – defiantly – to
deny jurisdiction based on its own – more inclusive– Amos
test which has been officially abrogated by the Eleventh
Circuit yet continued to be applied under the guise of
Exxon Mobil. Contrary to Exxon Mobil, the Amos test
questions whether:
(1) the party in federal court is the same as the
party in state court;
(2) the prior state court ruling was a final or
conclusive judgment on the merits;

11
(3) the party seeking relief in federal court had
a reasonable opportunity to raise its federal
claims in the state court proceeding; and
(4) the issue before the federal court was
either adjudicated by the state court or was
inextricably intertwined with the state court’s
judgment….
Amos v. Glynn County Bd. of Tax Assessors, 347 F.3d
1249, Fn. 11 (11th Cir. 2003)(internal citations omitted).
Although not explicitly stated, it is apparent that the
lower court here applied the Amos test in reaching its
decision. The parties never disputed issues one and two
(of the Amos test), so the Eleventh Circuit did not need
to address them.
However, it did address issues three and four of the
Amos test, holding that the Court lacked jurisdiction
because the federal claim was inextricably intertwined
with a state court judgment and because Petitioner had an
“opportunity to raise that claim” in the state court. This
is the wrong test. While Exxon Mobil was mentioned, the
court did not appreciate the impact Exxon Mobil had on
the “inextricably intertwined test.”
Merely “describing a federal claim as ‘inextricably
intertwined’ with a state-court judgment only states a
conclusion.” Hoblock v. Albany County Bd. of Elections,
422 F.3d 77, 86 (2d Cir. 2005). “[T]he phrase “inextricably
intertwined” has no independent content. It is simply
a descriptive label attached to claims that meet the
requirements outlined in Exxon Mobil.” Id. at 87.

12
Thus, the Eleventh Circuit should have applied the
four-part test set out in Exxon Mobil to determine if
Petitioner’s claim was inextricably intertwined. Had the
correct test been applied, Rooker-Feldman would not have
barred Petitioner’s action because her Complaint does not
seek review of a state court judgment nor does it invite
the federal court to overrule said judgment. Instead, it
raises an independent federal claim seeking declaratory
relief to acknowledge the already effective rescission.
While a determination of the federal action may ultimately
deny a legal conclusion that the state court has reached,
this Court has expressly held that the federal court still
has jurisdiction to address the claim. Exxon Mobil, 544
U.S. 280.
Failure to accept review of this Petition will
result in the continued expansion of Rooker-Feldman
by the Eleventh Circuit, an issue that this Court has
previously determined to be significantly important as it
overrides Congress’ conferral of federal-court jurisdiction
concurrent with jurisdiction exercised by state courts,
and supersedes the ordinary application of preclusion law
pursuant to 28 U.S.C. § 1738.
II. The lower court improperly applied federal res
judicata law to dismiss the action. 2
The district court decided this issue in contradiction to
binding precedent from this Court which establishes that
2. The Eleventh Circuit did not pass upon this issue in its
decision to affirm the district court. However, the United States
Supreme Court has the power to decide even questions not raised
or resolved by the lower courts. Youakim v. Miller, 425 U.S. 231,
234 (1976). Here, this issue was resolved by the lower district court
and thus this Court can decide the issue.

13
state res judicata law, rather than federal res judicata
law applies. See Semtek Intern. Inc. v. Lockheed Martin
Corp., 531 U.S. 497 (2001); Matsushita Elec. Indus. Co.,
Ltd. v. Epstein, 516 U.S. 367, 373 (1996).
Florida law requires four elements “for res judicata to
be applicable to a case: ‘(1) identity in the thing sued for;
(2) identity of the cause of action; (3) identity of the persons
and parties to the actions; and (4) identity of the quality
or capacity of the persons for or against whom the claim
is made.’” Tyson v. Viacom, Inc., 890 So. 2d 1205, 1209
(Fla. 4th DCA 2005). In the current action, when applying
the correct jurisdiction’s law, res judicata is inapplicable
as the first and second elements are not met.
III. State and Federal lower courts continue to apply a
statute of limitation to a TILA rescission although
no statute of limitations can apply for the simple
reason that rescission is a completed event, not a
claim. Additionally, despite this Court’s unanimous
decision in Jesinoski, the lower courts continue
to require suit in order to effect a recession even
though the statute calls for rescission by operation
of law. 3
Although this Court has already held that a TILA
rescission pursuant to 15 U.S.C. §1635 is effected upon the
mere sending of a rescission letter and requires no court
action, the lower state and federal courts – especially the
Florida Courts – continue to disregard effective rescission
based on a one-year statute of limitations which does not
apply to these rescissions.
3. Supra Fn 2.

14
The Truth in Lending Act (TILA) provides special
rescission rights for loans secured by a borrower’s
principal dwelling. 15 U.S.C. §1635(a). Section 1635(a)
allows a borrower to rescind the loan within three business
days of the consummation of the transaction. Section
1635(f) extends a borrower’s right of rescission from three
days to a maximum of three years if a material violation
of the TILA occurs. 15 U.S.C §1635(f).4
The lender, upon receipt of the rescission letter has
two options: 1) it can begin the unwinding process by
returning borrower’s down payment, which then triggers
the borrower’s obligation to return the property, or 2) it
can file suit to contest the rescission. 15 U.S.C 1635(b).
Thus, as held by this Court, the act of sending a
rescission letter triggers the automatic rescission of the
loan by operation of law. Jesinoski v. Countrywide Home
Loans, Inc., 135 S. Ct. 790 (2015). In Jesinoski, this Court
unambiguously held that:
The language [of §1635(a)] leaves no doubt that
rescission is effected when the borrower
notifies the creditor of his intention to
rescind. It follows that, so long as the borrower
4. In her Complaint, Zamore alleged a violation which triggered
the three-year provision of §1635(f). The refinancing of the loan on
January 30, 2007 is what started the three-year clock. Zamore’s
rescission letter was properly and timely sent October 22, 2009.
None of this is at issue.
Instead, the District Court’s dismissal was based on the
erroneous finding that the statute of limitations barred the TILA
rescission claim.

15
notifies within three years after the transaction
is consummated, his rescission is timely. The
statute does not also require him to sue
within three years.
Id. at 792 (emphasis added).
Despite this, the lower courts throughout the nation
continue to erroneously impose a one-year statute of
limitations – found in §1640(e) – to already effected
rescissions. See Cook v. Am. Home Mortgage Corp., 16CV-81733, 2017 WL 1386347 (S.D. Fla. Apr. 17, 2017);
Bernstein v. Wells Fargo Bank, N.A., 693 Fed. Appx. 848
(11th Cir. 2017); Hennington v. JPMorgan Chase Bank,
N.A., 117CV03853MLBCMS, 2018 WL 4474642 (N.D.
Ga. Apr. 10, 2018); Jacques v. Chase Bank USA, N.A.,
CV 15-548-RGA, 2016 WL 423770, at *9 (D. Del. Feb. 3,
2016), aff’d, 668 Fed. Appx. 437 (3d Cir. 2016).
These Courts insist on a doctrine that interprets
15 U.S.C. §1635 to mean that there is a separate TILA
rescission action or claim created by the plain language
of §1635, which is then subject to a statute of limitations.
But Petitioner did not seek to enforce the duties required
by Respondent after notice of rescission was received.
Instead, she sought a declaration of her rights under
a statute which establishes that the event of the TILA
rescission was completed.
This TILA rescission action is different from a TILA
damages action under §1640(e), which includes the oneyear statute of limitations. Stated another way, while
claims for damages brought pursuant to §1635 violations
are subject to a one-year statute of limitations, neither

16
§1635 nor §1640 addresses the statute of limitations for
other types of claims, such as rescission.
Some courts have acknowledged this difference,
holding that “[a] debtor may seek both civil damages
and rescission in the same action. See 15 U.S.C.
§§ 1635(g), 1640(g).” Gaytan v. Bank of New York Mellon,
CV1602421BROJEMX, 2017 WL 914707, at *4 (C.D. Cal.
Mar. 6, 2017); Paatalo v. JPMorgan Chase Bank, 146 F.
Supp. 3d 1239 (D. Or. 2015). But even courts that have
acknowledged that TILA rescission does not contain a
statute of limitations have judicially imposed a statute of
limitations. Hoang v. Bank of Am., N.A., 910 F.3d 1096 (9th
Cir. 2018)(imposing the state’s six-years contract statute
of limitations.); U.S. Bank Nat’l Ass’n v. Gerber, 380 F.
Supp. 3d 429, 438 (M.D. Pa. 2018)(imposing a one-year
statute of limitations).
While Jesinoski is clear that rescission happens by
operation of law, because Jesinoski did not specifically
address the statute of limitations for bringing declaratory
actions on already effective rescission, the lower courts
have used that distinction to refuse to acknowledge TILA
rescissions, either outright or by judicially imposing a
statute of limitations. The lack of clarity on this issue is
creating divergent case law throughout the nation, making
this issue ripe for the Court’s review.

17
CONCLUSION
For these reasons states above, the petition should
be granted.
DATED: July 24, 2019
Respectfully submitted,
Bruce Jacobs
Counsel of Record
Jacobs Legal, PLLC
Alfred I. Dupont Building
169 East Flagler Street,
Suite 1620
Miami, Florida 33131
(305) 358-7991
jacobs@jakelegal.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MARCH 25, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13635
Non-Argument Calendar
D.C. Docket No. 9:17-cv-80272-KAM
GALE ZAMORE,
Plaintiff - Appellant,
versus
DEUTSCHE BANK NATIONAL TRUST COMPANY,
INDIVIDUALLY, AND AS TRUSTEE FOR JP
MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5, SELECT
PORTFOLIO SERVICING, INC.,
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
March 25, 2019, Decided
Before ROSENBAUM, JILL PRYOR, and ANDERSON,
Circuit Judges.

2a
Appendix A
PER CURIAM:
Plaintiff Gale Zamore 1 filed a lawsuit against
Defendants Deutsche Bank National Trust Company
(“Deutsche Bank”) and Select Portfolio Servicing, Inc.
(“Select Portfolio”), seeking a declaration that her
mortgage loan had been rescinded under the Truth in
Lending Act (“TILA”), 15 U.S.C. § 1635. Based on a prior
foreclosure action between the parties that resulted in a
final judgment, the district court dismissed the lawsuit for
lack of jurisdiction under the Rooker-Feldman2 doctrine,
which prevents federal courts from reviewing final statecourt decisions. After careful review, we affirm.
I.
Zamore refinanced a mortgage loan in January
2007, and at that time, executed a promissory note in the
amount of $246,000, which was secured by a mortgage
in favor of the lender, Chase Bank USA, N.A. The note
was later assigned to Deutsche Bank, which in August
2009 commenced foreclosure proceedings in state court.
Around two months later, Zamore sent Deutsche Bank
a notice that she was exercising her right to rescind the
mortgage transaction under the TILA. Although the
1. We note that, based on the underlying mortgage documents
in this case, the plaintiff’s first name appears to be spelled “Gail,” not
“Gale.” The plaintiff’s counseled filings, however, appear undecided
on the matter, switching back and forth between the two spellings.
2. Rooker v. Fid. Trust Co., 263 U.S. 413, 44 S. Ct. 149, 68 L.
Ed. 362 (1923); Dist. of Columbia Court of Appeals v. Feldman, 460
U.S. 462, 103 S. Ct. 1303, 75 L. Ed. 2d 206 (1986).

3a
Appendix A
notice was docketed in the state-court case, Zamore did
not raise rescission as an affirmative defense, and it was
not otherwise addressed by the state court. The state
court entered a final judgment of foreclosure on May 29,
2013.
Zamore sought relief from the judgment in state
court. She filed a motion to vacate the judgment, raising
the issue of rescission. That motion was denied, and the
denial was affirmed on appeal. It appears that Zamore
also filed a pro se quiet-title action in July 2014, raising
various claims. Her complaint was dismissed in October
2015, and the dismissal was affirmed on appeal.
In 2017, Zamore filed this action against Deutsche
Bank and Select Portfolio. The complaint alleges two
causes of action. Count I is a request for declaratory
relief in the form of an order declaring that the mortgage
loan had been rescinded as of 2009 pursuant to 15 U.S.C.
§ 1635(b). Count II alleges that the defendants are liable
for damages based on the rescission.
Two weeks after filing suit, Zamore filed a motion
for a temporary restraining order “to enjoin Deutsche’s
continued possession of the property, to return possession
of the property to Petitioner, and to enjoin the Defendant
from continuing to place the property on the market for
sale or from selling the property pending the outcome of
this action.”
The defendants moved to dismiss the complaint on
several grounds, including that Zamore’s claims were

4a
Appendix A
barred by the Rooker-Feldman doctrine. The district
court agreed that Rooker-Feldman barred the action,
stating that Zamore’s purpose in filing the lawsuit was
“to challenge the validity of the foreclosure proceedings,
including the Final Judgment.” The court further noted
that Zamore had raised her rescission-based arguments
in state court. Zamore now appeals.
II.
We review de novo the application of the RookerFeldman doctrine. Lozman v. City of Riviera Beach, Fla.,
713 F.3d 1066, 1069-70 (11th Cir. 2013). Broadly speaking,
the Rooker-Feldman doctrine prevents federal district
courts from reviewing state-court decisions. Nicholson
v. Shafe, 558 F.3d 1266, 1270 (11th Cir. 2009). More
precisely, it applies to “cases brought by state-court losers
complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced
and inviting district court review and rejection of those
judgments.” Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284, 125 S. Ct. 1517, 161 L. Ed. 2d
454 (2005).
Although Rooker-Feldman is a narrow doctrine, “a
state court loser cannot avoid Rooker-Feldman’s bar by
cleverly cloaking her pleadings in the cloth of a different
claim.” May v. Morgan Cty., Ga., 878 F.3d 1001, 1004 (11th
Cir. 2017). Even after Exxon Mobil, we have continued to
apply the doctrine “both to federal claims raised in the
state court and to those ‘inextricably intertwined’ with
the state court’s judgment.” Id. at 1005 (quoting Casale v.
Tillman, 558 F.3d 1258, 1260-61 (11th Cir. 2009)). “A claim
is inextricably intertwined if it would effectively nullify

5a
Appendix A
the state court judgment, or [if] it succeeds only to the
extent that the state court wrongly decided the issues.”
Casale, 558 F.3d at 1260 (quotation marks omitted). The
doctrine does not apply, however, where a party did not
have a “reasonable opportunity” to raise her claim in the
state proceeding. Id.
Here, the district court did not err by dismissing
Zamore’s complaint for lack of jurisdiction because the
claims raised were “inextricably intertwined” with the
state foreclosure judgment. The foreclosure judgment
recognized that Zamore’s debt to Deutsche Bank was
valid and that Deutsche Bank was entitled to foreclose the
property in question. Granting Zamore’s current request
for declaratory relief, in the form of an order stating
that her mortgage loan was rescinded as of 2009, “would
effectively nullify the state court judgment” granting
foreclosure based on the validity of the debt. Casale, 558
F.3d at 1260. It is, therefore, barred by Rooker-Feldman.
Zamore’s arguments to avoid the application of
Rooker-Feldman are unpersuasive. She notes that
rescission under the TILA was not raised or decided in
the state foreclosure proceeding, but nothing in the record
indicates that Zamore lacked a reasonable opportunity to
raise that claim. See id. She was aware of such a claim as of
October 2009, well before the judgment in May 2013, and
she does not suggest that the state court could or would
not have considered the claim. In fact, Zamore attempted
to raise these arguments to the state courts, but it appears
she did so too late. Arguments that were not offered to or
were rejected by the state courts are not excepted from
Rooker-Feldman’s grasp. See id. at 1261.

6a
Appendix A
Zamore also contends that Rooker-Feldman does
not apply because she did not expressly challenge the
foreclosure judgment or request an order invalidating that
judgment. But “[t]hough the federal case may not be styled
as an appeal of a state court judgment, Rooker-Feldman
is not so easily bypassed.” May, 878 F.3d at 1005. And
for the reasons explained above, the relief that Zamore
did request—a declaration that the mortgage loan had
been rescinded as of 2009—would effectively invalidate
the foreclosure judgment. So Zamore’s current claim,
however phrased, is “inextricably intertwined” with the
state court’s judgment. See id. (“A claim that at its heart
challenges the state court decision itself—and not the
statute or law which underlies that decision—falls within
the doctrine because it ‘complain[s] of injuries caused
by state-court judgments’ and ‘invite[s] . . . review and
rejection of those judgments.’” (quoting Exxon Mobil,
544 U.S. at 284)).
For these reasons, the district court did not err in
dismissing Zamore’s complaint under the Rooker-Feldman
doctrine. We therefore do not address the district court’s
alternative grounds for dismissal.
AFFIRMED.

7a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, FILED JULY 26, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-80272-CIV-MARRA
GALE ZAMORE,
Plaintiff,
vs.
DEUTSCHE BANK NATIONAL TRUST COMPANY,
INDIVIDUALLY AND AS TRUSTEE FOR JP
MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5 AND
SELECT PORTFOLIO SERVICING, INC.,
Defendants.
July 26, 2018, Decided;
July 26, 2018,
Entered on Docket
ORDER GRANTING MOTION TO DISMISS
THIS CAUSE is before the Court upon Defendants’
Motion to Dismiss Plaintiff’s Complaint [DE 10]. The
Court has carefully considered the entire Court file and is
otherwise fully advised in the premises. No reply was filed.

8a
Appendix B
INTRODUCTION
This case arises out of allegations that Defendants1
violated the Truth in Lending Act, 15 U.S.C. § 1601 et seq.
(“TILA”), through its implementing regulations, 12 C.F.R.
§ 226 et seq. (“Regulation Z”). 2
The Complaint alleges two causes of action. Count
I is an action for “declaratory judgment” pursuant to
TILA, on the basis that the subject mortgage, attached
as Exhibit A to the Complaint (the “Mortgage”), has
been rescinded pursuant to 15 U.S.C. § 1635(b) of TILA,
through a Notice of Rescission, attached as Exhibit C to
the Complaint. Count II alleges that Defendants are also
liable for damages based on Plaintiff’s rescission of the
Mortgage.
Defendants argue that this Court lacks subject matter
jurisdiction over Plaintiff’s claims because the action is
barred by the Rooker-Feldman doctrine; that the action is
barred by res judicata due to the prior foreclosure action
between the parties resulting in a final judgment; that
this entire action is barred by the statute of limitations
under TILA, and finally, that the claims against SPS
must be dismissed because Plaintiff fails to allege facts
establishing that SPS is a “creditor” under TILA.
1. Deutsche Bank National Trust Co., individually, and as
Trustee for JP Morgan Mortgage Acquisition Trust 2007-CH5 Asset
Backed Pass-Through Certificates Series 2007-CH5 (the “Trust”)
and Select Portfolio Servicing, Inc. (“SPS”) (together, “Defendants”).
2. The Complaint also references unspecified violations of
“RESPA” (¶ 2(c)), but no such claims are alleged in the Complaint.

9a
Appendix B
BACKGROUND
Plaintiff’s Complaint alleges that the Mortgage
and Note, attached to the Complaint as Exhibits A and
B respectively, are “terminated, released, void, and
invalid” due to the Notice of Rescission dated November
10, 2009. Compl. ¶ 49, Ex. C. The Mortgage at issue has
already been foreclosed in a prior state court foreclosure
case between the Trust and Plaintiff: Palm Beach
County Case No. 50-2009-CA-027593 (the “Foreclosure
Action”). 3 On May 19, 2013, the state court entered a Final
Judgment of Foreclosure entered in favor of the Trust
(the “Final Judgment”), which is attached to the Motion
to Dismiss as Exhibit A. 4 Accordingly, the Mortgage
3. Plaintiff references the prior Foreclosure Action in her
Complaint by, among other things, attaching as Exhibit C the Notice
of Rescission she filed in that prior Foreclosure Action.
4. This Court is free to take judicial notice of public records
without converting a motion to dismiss into a motion for summary
judgment. Universal Express, Inc. v. U.S. S.E.C., 177 F.App’x 52,
53-54 (11th Cir. 2006). In considering a motion to dismiss, this Court
may, and does in this case, take judicial notice of the public record
filings in the Foreclosure Action that is referenced in the Complaint.
See, e.g., Krauser v. Evollution IP Holdings, Inc., 975 F. Supp. 2d
1247, 1251-52 (S.D. Fla. 2013) (Marra, J.) (taking judicial notice of
pleadings and documents in previously filed action for purposes
of evaluating motion to dismiss based on res judicata); Myrtyl v.
Nationstar Mortg. LLC, Case No. 15-CIV-61206, 2015 U.S. Dist.
LEXIS 87199, 2015 WL 4077376, at *1 (S.D. Fla. July 6, 2015)
(citing Bryant v. Avado Brands, Inc., 187 F.3d 1271, 1278 (11th Cir.
1999)); Mavrovich v. Vanderpool, 427 F. Supp. 2d 1084 (D. Kan.
2006) (“Because plaintiff made reference in his Complaint to the
previous cases in which he litigated this controversy, the Court will

10a
Appendix B
that Plaintiff seeks to “void” has already merged into
the Final Judgment, which is specifically referenced
and attacked in Plaintiff’s Complaint. See, e.g., Compl.
¶ 4 (alleging that the Foreclosure Action “resulted in an
irregular and wrongful forced foreclosure sale and writ of
possession”), ¶ 5 (“Defendants are attempting to enforce
contractual obligations in a foreclosure and the consumer
is in an affirmative or defensive position asserting a
rescission claim”), ¶ 65 (“Defendants have proceeded
to . . . unlawfully initiate and continue a state foreclosure
proceeding by posting a sale date and taking possession
of the property through eviction.”).
Because the Mortgage has already been foreclosed,
the purpose of this case is to challenge the validity of the
foreclosure proceedings, including the Final Judgment.
Indeed, upon filing this case, Plaintiff also filed a Notice
of Lis Pendens in the Foreclosure Action, stating the
following:
1. YOU ARE HEREBY NOTIFIED that on
March, 03, 2017 a Complaint for Rescission,
Emergency Restraining Order, Damages,
reference the documents and orders pertaining to his state litigation
in analyzing whether his claims are barred by res judicata.”).
All references to documents filed in the Foreclosure Act
are taken from the Palm Beach County Circuit Court public
record. The case docket may be accessed at https://applications.
mypalmbeachclerk.com and searching the court record by entering
case no. 2009CA027593 for the Foreclosure Action, or case no.
2014CA 008272 for the Quiet Title Action, and entering Plaintiff’s
last name (Zamore).

11a
Appendix B
Judicial Notice, Statutory Relief and Jury
Trial was filed with The United States District
Court, Southern District of Florida, Case
No 9:17CV80272, by the Defendant, GAIL
ZAMORE, which seeks to set aside, invalidate
or challenge the Final Judgment of Foreclosure
entered on May 29, 2013 recorded in book 26062
on page 1573, in the Official Records of Palm
Beach County, Florida, and all post-judgment
orders in this action.
2. The property subject to the Complaint for
Rescission, Emergency Restraining Order,
Damages, Judicial Notice, Statutory Relief and
Jury Trial is that certain parcel, lot or unit,
lying in Palm Beach County, Florida, as set
forth in said Final Judgment of Foreclosure
and particularly described as follows: [setting
forth the legal description and address of the
subject property].
See Foreclosure Action DE 188; DE 10, Exhibit (“Ex.”) B
(emphasis added).
Then, on March 19, 2017, Plaintiff filed in this case a
motion for a temporary restraining order, requesting that
this Court enjoin the ongoing enforcement of the state
court Foreclosure Judgment, the continuing execution
of the state court writ of possession, and the continued
possession and marketing for sale of the property by the
Trust. 5 The following day, on March 20, 2017, this Court
5. Pursuant to the Foreclosure Judgment, the foreclosure sale
took place on July 3, 2013, and the Trust was the successful bidder

12a
Appendix B
entered an Order, sua sponte, denying that motion,
explaining:
The Anti-Injunction Act, 28 U.S.C. § 2283
states, “[a] court of the United States may not
grant an injunction to stay proceedings in a
State court except as expressly authorized by
Act of Congress, or where necessary in aid of
its jurisdiction, or to protect or effectuate its
judgments.” Plaintiff’s motion requests the
precise type of injunctive relief in violation of
this statute.
DE 8 at 1.
This is also not the first time Plaintiff has raised
these alleged TILA violations against the Trust. Plaintiff
filed her Notice of Rescission in the Foreclosure Action
on November 10, 2009. Compl. Ex. C. On July 10, 2013,
Plaintiff filed a “Motion to Vacate Sale Held on July 03,
2013, Grounded that Mortgage Has Been Rescinded,”
which contained nearly identical arguments as Plaintiff
makes in the instant Complaint. (“Motion to Vacate”)
Foreclosure Action, DE 62. That motion elaborated on the
at the sale. Foreclosure Action, DE 59. Although Plaintiff continued
to oppose the foreclosure proceedings, a Certificate of Sale was
issued to the Trust on July 3, 2013 (id.), a Certificate of Title was
issued in favor of the Trust on November 13, 2014 (DE 129), and a
Writ of Possession was issued to the Trust on March 1, 2017 (DE
183), prompting the immediate filing of this Complaint in an effort
to avoid dispossession from the property and cloud the Trust’s title
to the property.

13a
Appendix B
alleged TILA violations and argued that “. . . the Court
erred when it granted Plaintiff’s Motion for Summary
Judgment despite the Rescission . . .” Foreclosure Action,
DE 62, ¶ 11. That motion was denied on July 17, 2013, in
an order that specifically referenced Plaintiff’s claim for
rescission. Foreclosure Action, DE 65.
Then there was a hearing on Plaintiff’s Motion to
Vacate on May 23, 2014. Foreclosure Action, DE 160. The
transcript reveals that Plaintiff’s rescission claim was
never asserted as an affirmative defense in the Answer,
and the Motion to Vacate was denied because “the defense
was waived and any errors [were] just subsumed in the
judgment.” Id. at 16, 24, 25. Plaintiff then appealed to
the Fourth District Court of Appeal. The decision of the
Circuit Court was per curiam affirmed in Zamore v.
Deutsche Bank Nat. Trust. Co., 210 So. 3d 1295 (Table),
2016 WL 1614392 (Fla. Dist. Ct. App. 2016). Accordingly,
that decision is now final.
This is also not the first lawsuit that Plaintiff has
filed against the Trust based on alleged TILA violations.
On July 7, 2014, Plaintiff filed a Verified Complaint to
Quiet Title in the Circuit Court of the Fifteenth Judicial
Circuit in and for Palm Beach County, Case No. 50-2014CA 008272 (“Quiet Title Action”) DE 5. Plaintiff’s Second
Amended Complaint, filed February 10, 2015, was based,
in part, on the same alleged TILA violations at issue here.
Quiet Title Action, DE 41, ¶¶ 14-17. The Circuit Court
granted Defendants’ Motion to Dismiss on June 23, 2015.
Quiet Title Action, DE 63. That dismissal order was then
appealed to the Fourth District Court of Appeal and per

14a
Appendix B
curiam affirmed in Zamore v. Deutsche Bank Nat. Trust.
Co., 205 So. 3d 611 (Table), 2016 WL 6826528 (Fla. Dist.
Ct. App. Nov. 17, 2016). That dismissal is now final.
STANDARD OF REVIEW
To survive a motion to dismiss under Rule 12(b)
(6), a “complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible
on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.
Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167
L. Ed. 2d 929 (2007)). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at 678.
This “requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action.”
Wilchombe v. Tee Vee Toons, Inc., 555 F.3d 949, 958 (11th
Cir. 2009) (citing Twombly, 550 U.S. at 555). Moreover,
“[f]actual allegations must be enough to raise a right to
relief above the speculative level . . .” Twombly, 550 U.S.
at 555.
DISCUSSION
A. The Rooker-Feldman Doctrine
The United States Supreme Court has made it
clear that federal courts are not empowered to overrule
legitimate decisions made by state courts. See Rooker v.
Fidelity Trust Co., 263 U.S. 413, 415-16, 44 S. Ct. 149, 68

15a
Appendix B
L. Ed. 362 (1923); D.C. Court of Appeals v. Feldman, 460
U.S. 462,476-82, 103 S. Ct. 1303, 75 L. Ed. 2d 206 (1983)
(“Rooker-Feldman”). Rooker-Feldman limits the subject
matter jurisdiction of federal district courts and courts
of appeal over certain matters related to previous state
court litigation. Goodman v. Sipos, 259 F.3d 1327, 1332
(11th Cir. 2001). Specifically, Rooker-Feldman “precludes
lower federal court jurisdiction over claims seeking review
of state court judgments . . . no matter how erroneous
or unconstitutional the state court judgment may be.”
Brokaw v. Weaver, 305 F.3d 660, 664 (7th Cir. 2002) (citing
Remer v. Burlington Area Sch. Dist., 205 F.3d 990, 996
(7th Cir. 2000)).
The Eleventh Circuit has “delineat[ed] the boundaries
of the Rooker-Feldman Doctrine [to include]: ‘cases
brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the
district court proceedings commenced and inviting
district court review and rejection of those judgments.’”
Nicholson v. Shafe, 558 F.3d 1266, 1274 (11th Cir. 2009)
(quoting Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284, 125 S. Ct. 1517, 161 L. Ed. 2d 454 (2005)).
Rooker-Feldman applies even when the claim was not
argued in state court. Liedel v. Juvenile Court of Madison
Cnty., 891 F.2d 1542, 1545 (11th Cir. 1990). Although the
Eleventh Circuit has recognized an exception to RookerFeldman when the party did not have a “reasonable
opportunity” to raise their federal claims in state court,
that exception only applies when the plaintiff did not
have notice and, as a result, did not participate in the

16a
Appendix B
state court proceedings that he seeks to collaterally
attack in federal court. Wood v. Orange Cnty., 715 F.2d
1543, 1547-48 (11th Cir. 1983) (finding that because of the
lack of notice and the inability to participate in the state
proceedings, the plaintiffs did not have a “reasonable
opportunity” to assert their claims and therefore, their
claims were not “inextricably intertwined”). Such an
exception is not applicable here as the record abundantly
shows that Plaintiff’s claim of rescission was presented
and rejected during the state court proceeding. As
discussed at length in the Background section of this
Order, the subject of the instant Complaint was raised and
rejected on multiple occasions by the state court in both
the Foreclosure Action and in the Quiet Title Action. For
this reason, this Court is without jurisdiction to reconsider
the foreclosure court’s ruling denying Plaintiff’s motion to
enforce her rescission as to the Trust.6 Moreover, even if
this Court had jurisdiction over the Trust, there are two
other reasons why the Complaint in this matter should
be dismissed.
B. Defendant SPS
Defendant SPS, the loan servicer for the Mortgage,
cannot be sued under TILA because it is not a “creditor.”
Only creditors and assignees are subject to liability under
TILA. See 15 U.S.C. §§ 1640, 1641(a); Ward v. Security
6. Since the other defendant in this matter, SPS, was not
a named defendant in any of the prior state court lawsuits, the
Rooker-Feldman doctrine does not apply to SPS. However, the Court
concludes that SPS is due to be dismissed with prejudice as it is not
a creditor under TILA. See 15 U.S.C. §§ 1640, 1641(a).

17a
Appendix B
Atlantic Mortg. Electronic Registration Systems, Inc.,
858 F. Supp. 2d 561, 566-67 (E.D. N.C. 2012).
A creditor under TILA is the person to whom the
debt is initially payable on the face of the evidence of
indebtedness. 15 U.S.C. § 1602(g). An assignee of the
debt may also be held liable under TILA if the violation is
apparent on the face of the disclosure statement. 15 U.S.C.
§ 1641. However, a servicer of a consumer obligation is
expressly not liable under TILA, unless the servicer is
also the owner of the obligation. 15 U.S.C. § 1641(f)(1).
Under TILA, a servicer is the entity responsible
for receiving any scheduled periodic payments from a
borrower pursuant to the terms of the loan. 15 U.S.C.
§1641(f)(3); 12 U.S.C. § 2605(i)(2). Defendants are correct
that SPS does not qualify as a creditor as defined by
15 U.S.C. § 1602(g) and 12 C.F.R. § 226.2(a)(17), as the
Complaint contains no allegations or inference that
SPS was the entity to whom the debt was originally
payable. Not only does Plaintiff fail to allege that SPS
is the initial owner of the Mortgage, or a later assignee7
of the Mortgage, but Plaintiff affirmatively alleges and
recognizes that “Defendant SPS is a mortgage servicing
company headquartered in the State of Utah.” Comp. ¶ 9.
7. TILA expressly provides that a ser vicer—a person
responsible for receiving any scheduled periodic payments from a
borrower pursuant to the terms of any loan, 15 U.S.C. § 1641(f)(3);
12 U.S.C. § 2605(i)(2)-(3)—is not to be treated as an assignee “unless
the servicer is or was the owner of the obligation.” 15 U.S.C. § 1641(f)
(1). Plaintiff’s Complaint contains no factual allegations as to SPS’s
former or present ownership of Plaintiff’s loan.

18a
Appendix B
The Mortgage is clear that “Lender is Chase Bank
USA, N.A.” Compl., Ex. A at 1. The Mortgage was then
assigned to the Trust. See Compl. Ex. A (Foreclosure
Judgment); Compl. ¶ 8. SPS clearly was never a “creditor.”
Because SPS is a loan servicer, and not a “creditor” or
“assignee” under TILA, the claims against SPS must be
dismissed with prejudice.
C. Res Judicata
Regarding res judicata, the Eleventh Circuit has held
that,
[a]s a general rule, res judicata bars the
filing of claims which were raised or could
have been raised in an earlier proceeding. A
party asserting res judicata bears the burden
of show ing these elements: (1) the prior
decision must have been rendered by a court
of competent jurisdiction; (2) there must have
been a final judgment on the merits; (3) both
cases must involve the same parties or their
privies; and (4) both cases must involve the
same causes of action. Only if all four of those
requirements are met do we consider whether
the claim in the new suit was or could have been
raised in the prior action; if the answer is yes,
res judicata applies.
Dormescar v. U.S. Atty. Gen., 690 F.3d 1258, 1268 (11th
Cir. 2012) (citations, quotations, and notes omitted); see
also Lobo v. Celebrity Cruises, Inc., 704 F.3d 882, 892-93
(11th Cir. 2013) (comparing complaints from two separate

19a
Appendix B
cases to determine whether the same facts were involved
for purposes of res judicata and ultimately affirming
district court’s dismissal under Rule 12(b)(6)); Krauser v.
Evollution IP Holdings, Inc., 975 F. Supp. 2d 1247, 125253 (S.D. Fla. 2013) (Marra, J.).
The Foreclosure Judgment was a final judgment on
the merits rendered by the Fifteenth Judicial Circuit of
Florida, and both cases arise out of the same nucleus of
operative facts. Indeed, this action attempts to invalidate
the same Mortgage and Final Judgment that were the
subject of the prior Foreclosure Action. Since the claim
against SPS is being dismissed, there is mutuality of the
parties between Plaintiff and the Trust. Accordingly, all
of the elements of res judicata are present as between
Plaintiff and the Trust. If the Court had jurisdiction to
entertain this case against the Trust, res judicata would
bar prosecution it against the Trust. See 46 Am. Jur. 2d
Judgments § 556 (2018).
D. Statute of Limitations
In Cook v. American Home Mortgage Corp., No.
16-CV-81733-MIDDLEBROOKS, 2017 U.S. Dist. LEXIS
58209, 2017 WL 1386347 at *3 (S.D. Fla. Apr. 17, 2017), this
Court closely analyzed the statute of limitations applicable
to claims for rescission and damages under TILA. In
Cook, the mortgage transaction occurred on October 3,
2006, and the borrower mailed a notice of rescission to the
creditor on October 2, 2009 — just within the three year
period for providing notice of the claimed rescission. See
Jesinoski v. Countrywide Home Loans, Inc., 135 S. Ct.

20a
Appendix B
790, 190 L. Ed. 2d 650 (2015). Then, seven years later in
2016, the borrower filed a lawsuit based on the claimed
rescission and contended that the statute of limitations did
not bar the claim because he mailed the notice of rescission
within the initial three year period. The Court rejected
the borrower’s argument, finding it contrary to the strict
statute of limitations built into TILA:
Defendants arg ue that those claims are
foreclosed by TILA’s statute of limitations.
TILA establishes a window of “one year from
the date of the occurrence of the violation” for
a potential plaintiff to bring suit. 15 U.S.C.
§ 1640(e). Plaintiff’s Complaint and Response
cite Jesinoski v. Countrywide Home Loans,
Inc., 135 S.Ct. 790, 190 L. Ed. 2d 650 (2015),
for the proposition that a borrower has three
years from the date the transaction occurred
to timely rescind a credit transaction. But at
most, Jesinoski moved back by three years the
date that a violation under TILA accrued. The
accrual period is not the same as the statute
of limitations period. An action under TILA
must still be filed within one year of a violation’s
occurrence. Since Plaintiff mailed a notice of
rescission on October 2, 2009, Defendants’
violation arguably occurred as late as October
23, 2009—the day the 20 day window for a
lender to respond to a rescission notice closed,
15 U.S.C. § 1635(b). Even under that scenario,
Plaintiff needed to file a complaint by October
23, 2010 to satisfy TILA’s statute of limitations.

21a
Appendix B
He did not do so. Accordingly, his TILA claim,
and therefore also his DJA [Declaratory
Judgment Act] action, is time-barred.
Cook, 2017 U.S. Dist. LEXIS 58209, 2017 WL 1386347 at
*3; see also, e.g., Fendon v. Bank of America, N.A., No.
16C3531, 2017 U.S. Dist. LEXIS 33236, 2017 WL 914782,
at *4 (N.D. Ill. Mar. 8, 2017) (“The fact that a consumer
provides a timely notice of rescission does not mean that
he has an indefinite period in which he can sue to enforce
his rescission right... The court agrees with other courts
in this district who have concluded that TILA’s one-year
limitations period for damages actions applies to suits
seeking enforcement of rescission.”); Taylor v. Wells
Fargo Bank, N.A., 85 F. Supp. 3d 63, 77 n.5 (D.D.C. Mar.
25, 2016) (“Even assuming Plaintiff exercised his right to
rescission within the statutory three-year period, Plaintiff
would have had to file his TILA rescission claim in district
court by January 7, 2011, at the latest in order for his claim
not to be time-barred under the statute of limitations set
forth in 15 U.S.C. § 1640(e)”.).
The same outcome would be required here. The
Mortgage transaction at issue occurred on January 30,
2007. Compl. Ex. A. The Notice of Rescission was sent on
October 22, 2009, Compl. Ex. C, meaning that the twenty
day window for the Trust to respond would have ended on
November 11, 2009, the date of the alleged violation under
TILA. Accordingly, Plaintiff was permitted to file these
claims up until November 11, 2010, 15 U.S.C. § 1640(e),
which was more than six years before this case was filed.
As such, Plaintiff’s Complaint — alleging the same types

22a
Appendix B
of claims for rescission and damages that were at issue
in Cook — would be barred by the statute of limitations.
CONCLUSION
Plaintiff’s Complaint must be dismissed in its entirety,
for multiple independent reasons. First, the claims against
SPS must be dismissed because Plaintiff has not alleged
any facts establishing that SPS could be held liable under
TILA. As for the claims against the Trust, this Court lacks
subject matter jurisdiction to review the state court Final
Judgment under the Rooker-Feldman doctrine, which is
exactly what Plaintiff is requesting from this Court. Even
if the Court had subject matter jurisdiction of the claims
against the Trust, res judicata would bar Plaintiff from relitigating these TILA claims. Finally, the Court would find
that Plaintiff’s claims must also be dismissed because they
are barred by the statute of limitations, having been filed
more than six years after the limitations period expired.
Although leave to amend the pleadings should be
freely granted when justice so requires, a court may
deny a motion to amend if such amendment would be
futile. Coventry First, LLC v. McCarty, 605 F.3d 865, 870
(11th Cir. 2010); Kean v. Board of Trustees of the Three
Rivers Regional Library System, 321 F.R.D. 448 (S.D.
Ga. 2017). Any proposed amendment in this case would be
futile because it would fail as a matter of law as discussed
above. Moreover, no request to amend has been made.
See Wagner v. Daewoo Heavy Industries America Corp.,
314 F.3d 541, 542 (11th Cir. 2002)(“A district court is not
required to grant a plaintiff leave to amend his complaint

23a
Appendix B
sua sponte when the plaintiff, who is represented by
counsel, never filed a motion to amend nor requested leave
to amend before the district court.”).
In accordance with the conclusions and rulings made
herein, it is hereby
ORDERED AND ADJUDGED that Defendants’
Motion to Dismiss Plaintiff’s Complaint [DE 10] is granted
in its entirety. Plaintiff’s Complaint is dismissed with
prejudice. In accordance with Fed. R. Civ. P. 58, final
judgment will be entered by separate order. Any pending
motions are denied as moot. This case is closed.
DONE AND ORDERED in Chambers at West Palm
Beach, Palm Beach County, Florida, this 26th day of July,
2018.
/s/ Kenneth A. Marra
KENNETH A. MARRA
United States District Judge

